No. 19-___
IN THE

Supreme Court of the United States
————
JOSEPH BECKER, TERENCE BEVEN, WANDA BEVIS,
THOMAS EDDIE BOWDEN, TROY L. LILLIE, JR., ET AL.,
Petitioners,
v.
RALPH S. JANVEY, in his Capacity as Court Appointed
Receiver for Stanford International Bank Limited,
Stanford Group Company, Stanford Capital
Management L.L.C., Stanford Financial Group,
and Stanford Financial Group Bldg.,
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON,
ARCH SPECIALTY INSURANCE COMPANY,
LEXINGTON INSURANCE COMPANY, ET. AL.
Respondents.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit
————
PETITION FOR WRIT OF CERTIORARI
————
PHILLIP W. PREIS
Counsel of Record
CHARLES M. GORDON, JR.
CRYSTAL D. BURKHALTER
CAROLINE P. GRAHAM
PREIS GORDON, APLC
450 Laurel Street, Suite 2050
Baton Rouge, Louisiana 70801
(225) 387-0707
phil@preislaw.com
chuck@preislaw.com
crystal@preislaw.com
caroline@preislaw.com
January 21, 2020

Counsel for Petitioners,
Joseph Becker, et al.

WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTIONS PRESENTED
An equitable receivership was appointed by the
Securities and Exchange Commission to administer
the assets of the infamous Ponzi scheme operated by
Allen Stanford. The Retirees filed a securities action
against the Stanford Brokers and Underwriters
in state court. Underwriters agreed to settle with
the Receiver conditioned on the court permanently
staying the state court securities lawsuits filed against
Underwriters by the Retirees. The district court and
Fifth Circuit entered the bar orders and approved the
settlement. The following questions are presented:
1. Whether the Anti-Injunction Act (“AIA”), 28
U.S.C. §2283, allows for the issuance of bar order by
the equitable receiver appointed by the SEC that
permanently stays a pending state court securities
claim of the Retirees based upon general equitable
principles? Atlantic Coast Line R. Co. v. Brotherhood
of Locomotive Engineers, 398 U.S. 281, 287, 90 S.Ct.
1739, 26 L.Ed.2d 234 (1970).
2. Whether the competing claims of the Receiver
and the Retirees to the proceeds of the Underwriters
polices are personal claims or in rem claims for the
purpose of determining whether the “in aid of jurisdiction” exception existed to the AIA when coverage of the
Receiver is contested, no hearing has been held to
determine the scope of the exclusions applicable to the
Receiver’s claim, and no cash proceeds of the policy
have been actually paid to the Receiver? Vendo Co. v.
Lektro-Vend Corp., 433 U.S. 623, 642, 97 S.Ct. 2881,
2893, 53 L.Ed.2d 1009 (1977), and Kline v. Burke
Const. Co., 260 U.S. 226, 230; 43 S.Ct. 79, 81; 67 L.Ed.
226 (1922).

(i)

ii
LIST OF PARTIES TO THE PROCEEDING
Petitioners, Joseph Becker, Terence Beven, Wanda
Bevis, Thomas Eddie Bowden, Linda Boyd, James E.
Brown, Sr., Murphy Buell, Jerry Burris, John
Buscheme, Virginia Buscheme, Robert L. Bush, Anita
Ellen Carter, Ira Gene Causey, Clyde “Jim” Chisholm,
Estate of Joseph A. Chustz, Darrell D. Courville,
Kevin Courville, Mallory (Paige) Chastant D’Amore,
Ralph D’Amore IRA, Ralph D’Amore, William
Dawson, Fred Demarest, Cynthia Dore, Kenneth W.
Doughtery, Marcel Dumestre, Margaret Dumestre,
Gwendolyn E. Fabre, Leah Farr, Richard S. Feucht,
Joan A. Feutch, Deborah Forbes, G. Kendall Forbes,
Mae Giambrone on behalf of Michael Giambrone,
Lynn Gildersleeve Michelli, Lynn Gildersleeve
Michelli on behalf of the Estate of Willa Mae
Gildersleeve, Robert Gildersleeve, Gordon Gill, Nancy
Gill, Jason Graham, Robert Graham, Patrick Haney,
Charles Hart, Patsy Hebert, William Bruce Johnson,
William Bruce Johnson on behalf of the Aimee Lynn
Johnson Trust #1-SAS, William Bruce Johnson on
behalf of Benton Bruce Johnson TR II, William Bruce
Johnson on behalf of Benton Bruce Johnson Trust #1,
William Bruce Johnson on behalf of Mark Calvin
Johnson Trust #1, William Bruce Johnson on behalf of
Martha JC Johnson Gen Skpg Tr-SAS, Thomas
Christian Kiebach as the independent executor of the
Succession of Thomas James Kiebach, Dennis L.
Kirby, Kerry Kling, Don Landers, Daniel Landry,
Merrill Laplante, Laura Jeanette N. Lee, Troy L.
Lillie, Jr., Greg Magee, Mamie C. Sanchez as power of
attorney for the Estate of Mamie Helen Baumann,
Claude Marquette, Ronald Marston, Charles L.
Massey, Jean Anne Mayhall (individually and on
behalf of Microchip ID Services, Inc. Retirement Plan),
Estate of Billie Ruth McMorris, Ronald B. McMorris,

iii
Virginia H. McMorris, Microchip ID Services, Inc.
Retirement Plan (Jean Anne Mayhall and John
Wade), Kathy Mier, Louis Mier, Jacqueline Millet,
Estate of Thomas Moran, Bobby Nix, Margaret Nix,
Arthur Ordoyne, Lonnie Ordoyne, Bennie O’Rear,
Estate of Claudia O’Rear, Mary Anne Paternostro,
Larry W. Perkins, Monty M. Perkins, Lynn Philippe,
Joseph Philippe, William Phillips, James Roland,
Susan Roland, Jesse Romig, Charles R. Sanchez, Mamie
C. Sanchez, Julie Savoy, Robert Schwendimann,
Thomas Slaughter, Estate of G. Rogers Smith, Larry
N. Smith, Robert Smith, Rodney Starkey, Carol
Stegall, James “Harold” Stegall, Walter Bruce Stone,
Sharon Witmer, Walter Bruce Stone as independent
executor of Succession of Sharon Witmer, Terry Tarver,
Terry N. Tullis, Gail Unglesby, Ronald Valentine,
Anthony J. Ventrella, John Wade (individually and on
behalf of Microchip ID Services Inc. Retirement Plan),
Olivia Sue Warnock, Arthur Waxley, Jr., Charles L.
White, Estate of Kenneth Wilkewitz, Steven Wilson,
and Martha Witmer (collectively the “Retirees”), were
objecting parties in the district court and appellants in
the court of appeals.
Respondent, Ralph S. Janvey (the “Receiver”), Court
Appointed Receiver for the Stanford International
Bank, Ltd., In his Capacity as Court Appointed
Receiver for Stanford International Bank Limited,
Stanford Group Company, Stanford Capital Management L.L.C., Stanford Financial Group, and Stanford
Financial Group Bldg., was a movant in the district
court action and an appellee in the court of appeals.
Respondents, Certain Underwriters at Lloyd’s of
London, Arch Specialty Insurance Company, and
Lexington Insurance Company (collectively “Under-

iv
writers”), were interested parties in the district court
action and appellees in the court of appeals.
Respondents, Eddie Rollins, a former employee of
Stanford, and Cordell Haymon, a former Stanford
director, were objecting parties in the district court
action and appellants in the court of appeals.
RULE 29.6 STATEMENT
Microchip ID Services Inc., whose pension plan
purchased a certificate of deposit, does not have a
parent corporation and no publically held corporation
owns 10% or more of any of its stock.
RELATED PROCEEDINGS
Pursuant to Supreme Court Rule 14.1, Petitioners
stated that the following proceedings are directly
related to the action that is the subject of this Petition
as it deals with permanent bar orders issued in
connection with settlements by the Stanford Receiver:
United States Court of Appeals for the Fifth
Circuit.
Antonio Zacarias, et al. v. Stanford Int’l Bank,
Ltd., et al., No. 17-11073 consolidated with 1711114, 17-11122, 17-11127, 17-11128, 17-11129,
issued on July 22, 2019, at 931 F.3d 382 (5th Cir.
2019), withdrawn and superseded on rehearing on
December 19, 2019, at 945 F.3d 883 (5th Cir.
2019).

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ...............................

i

LIST OF PARTIES TO THE PROCEEDING ....

ii

RULE 29.6 STATEMENT ...................................

iv

RELATED PROCEEDINGS ...............................

iv

TABLE OF AUTHORITIES ................................

ix

OPINIONS BELOW ............................................

1

STATEMENT OF JURISDICTION ....................

1

STATUTORY PROVISIONS INVOLVED ..........

2

STATEMENT OF THE CASE ............................

4

REASONS FOR GRANTING THE PETITION..

16

I. An Order Issued By The Fifth Circuit
Allowing An Equitable Receiver To
Permanently Stay A Pending State Court
Securities Claim Based Upon General
Equitable Principles Is Not An Exception
To The Anti-Injunction Act. .....................

16

II. The Competing Claims Of The Receiver
And The Retirees To The Proceeds Of
The Underwriters Policies Are Not In
Rem Claims For The Purpose Of
Determining Whether The “In Aid Of
Jurisdiction” Exception Existed To The
AIA When Coverage Of The Receiver Is
Contested And No Cash Proceeds Of The
Policy Have Been Actually Paid To The
Receiver. ....................................................

19

(v)

vi
TABLE OF CONTENTS—Continued
Page
III. The Retirees’ Claims Against Underwriters May Not Be Permanently Stayed
Without First Conducting A Hearing To
Determine Who Has A Legal Right To
The Policy Proceeds Under The Terms Of
The Policy. .................................................

26

CONCLUSION ....................................................

33

APPENDIX
APPENDIX A:
Opinion of the United States Court of
Appeals for the Fifth Circuit, No. 17-10663
(June 17, 2019) ...............................................

1a

APPENDIX B:
Per Curiam Order of the United States
Court of Appeals for the Fifth Circuit,
denying Petitions for Rehearing and
Rehearing En Banc, No. 17-10663 (October
23, 2019) .........................................................

36a

APPENDIX C:
Judgment of the United States Court of
Appeals for the Fifth Circuit issued as
Mandate No. 17-10663 (October 31, 2019) ....

40a

vii
TABLE OF CONTENTS—Continued
Page
APPENDIX D:
Final Bar Order by the Honorable David C.
Godbey granting the Expedited Request for
Entry of Scheduling Order and Motion to
Approve Proposed Settlement with Certain
Underwriters at Lloyd’s of London, Arch
Specialty Insurance Company, and Lexington Insurance Company, To Enter Bar
Order, To Enter the Final Judgments and
Bar Orders, and For Attorney’s Fees (Doc.
2324) filed by Ralph S. Janvey, in his
capacity as court-appointed Receiver for
Stanford International Bank, Ltd., et al.
(May 16, 2017) ................................................

44a

APPENDIX E:
Order by the Honorable David C. Godbey
denying the Louisiana Retirees’ Objections
to the Expedited Request for Entry of
Scheduling Order and Motion to Approve
Proposed Settlement with Certain Underwriters at Lloyd’s of London, Arch Specialty
Insurance Company, and Lexington Insurance Company, To Enter Bar Order, To
Enter the Final Judgments and Bar Orders,
and For Attorney’s Fees (Doc. 2324) filed by
Ralph S. Janvey, in his capacity as courtappointed Receiver for Stanford International Bank, Ltd., et al. (May 16, 2017).........

58a

viii
TABLE OF CONTENTS—Continued
Page
APPENDIX F:
Order by the Honorable David C. Godbey
approving Attorney’s Fees in connection
with the Expedited Request for Entry of
Scheduling Order and to Stay Related
Litigation and Motion to Approve Proposed
Settlement with Certain Underwriters at
Lloyd’s of London, Arch Specialty Insurance
Company, and Lexington Insurance Company, To Enter Bar Order, To Enter the
Final Judgments and Bar Orders, and For
Attorney’s Fees (Doc. 2324) filed by Ralph S.
Janvey, in his capacity as court-appointed
Receiver for Stanford International Bank,
Ltd., et al. (May 16, 2017) ..............................

74a

APPENDIX G:
Order by the Honorable David C. Godbey
denying Objectors Former Employees’
Motion for New Trial and Motion for
Reconsideration in S.E.C. v. Stanford
International Bank, et al. (October 3, 2017) .

82a

APPENDIX H:
28 U.S.C.A §2283 ...........................................

86a

APPENDIX I:
La. R.S. 22:1269 .............................................

87a

APPENDIX J:
La. R.S. 51:714 ...............................................

90a

ix
TABLE OF AUTHORITIES
CASES

Page(s)

202 N. Monroe, LLC v. Sower,
850 F.3d 265 (6th Cir. 2017) .....................

17

Atlantic Coast Line R. Co. v. Brotherhood
of Locomotive Engineers,
398 U.S. 281, 90 S.Ct. 1739,
26 L.Ed.2d 234 (1970) ..............................passim
BancInsure, Inc. v. FDIC,
796 F.3d 1226 (10th Cir. 2015) ................. 32, 33
Chadbourne & Parke LLP v. Troice,
571 U.S. 377, 134 S.Ct. 1058,
188 L.Ed.2d 88 (2014) ............................... 6, 15
Chi. & G.T. Ry. Co. v. Wellman,
143 U.S. 339, 12 S.Ct. 400,
36 L.Ed. 176 (1892) ................................... 14, 28
Chick Kam Choo v. Exxon, Corp.,
486 U.S. 140, 108 S.Ct. 1684,
100 L.Ed.2d 127 (1988) ............................. 17, 19
Cobalt Multifamily Inv’rs I, LLC v.
Shapiro,
No. 06-6468, 2013 WL 5418588
(S.D.N.Y. Sept. 27, 2013) ..........................

26

F.D.I.C. v. Geldermann, Inc.,
975 F.2d 695 (10th Cir. 1992) ...................

26

Gary v. American Casualty Company
of Reading, PA.,
753 F.Supp. 1547 (W.D. Okla. 1990) ........

32

Hawker v. Doak,
685 Fed.App’x. 565 (9th Cir. 2017)...........

32

x
TABLE OF AUTHORITIES—Continued
Page(s)
In re 15375 Mem’l Corp.,
382 B.R. 652 (Bankr. D. Del. 2008) .... 24, 30, 31
In re Combustion Eng’g, Inc.,
391 F.3d 190 (3d Cir. 2004) .................... 8, 9, 27
In re Cont’l Airlines,
203 F.3d 203 (3d Cir. 2000) ...................... 24, 30
In re Edgeworth,
993 F.2d 51 (5th Cir. 1993) .......................

30

In re Enivid, Inc.,
364 B.R. 139 (Bankr. D. Mass. 2007) .......

24

In re Equinox Oil Co., Inc.,
300 F.3d 614 (5th Cir. 2002) .....................

30

In re GunnAllen Fin., Inc.,
443 B.R. 908 (Bankr. M.D. Fla. 2011) ......

26

In re Imerys Talc Am., Inc.,
19-MC-103 (MN), 2019 WL
3253366 (D. Del. July 19, 2019) ............... 9, 27
In re Prudential Ins. Co. of Am. Sales
Practice Litig.,
261 F.3d 355 (3d Cir. 2001) ......................

17

Indian Harbor Ins. v. Zucker,
No. 1:14-cv-1017, 2016 WL 1253040
(W.D. Mich. Mar. 31, 2016) ......................

33

Kline v. Burke Construction Co.,
260 U.S. 226, 43 S.Ct. 79,
67 L.Ed. 226 (1922) ..................................passim

xi
TABLE OF AUTHORITIES—Continued
Page(s)
Maryland Casualty Co. v. W.R. Grace & Co.,
726 F. Supp. 62 (S.D.N.Y. 1989), aff’d,
889 F.2d 1231 (1989) ................................

25

MLE Realty Assocs. v. Handler,
192 F.3d 259 (2d Cir. 1999) ......................

20

Nat’l Union Fire Ins. Co. of Pittsburgh,
Pa. v. Resolution Trust Corp.,
No. H-92-1157, 1992 WL 611463
(S.D. Tex. Aug. 12, 1992) .......................... 31, 32
Negrete v. Allianz Life Ins. Co. of N. Am.,
523 F.3d 1091 (9th Cir. 2008) ...................

17

Nevada Gen. Ins. Co. v. Provencio,
CIV 15-0165 MCA/KBM, 2016 WL
9488767 (D.N.M. Dec. 19, 2016) ...............

24

Oliver v. Indian Harbor Ins. Co.,
No. 07 C 5002, 2008 WL 565514
(N.D. Ill. Feb. 27, 2008) ............................

33

Redmond v. ACE Am. Ins. Co.,
614 Fed. App’x 77 (3d Cir. 2015) ..............

33

Retirement Systems of Ala. v. J.P.
Morgan Chase & Co.,
386 F.3d 419 (2d Cir. 2004) .......... 22, 23, 24, 25
Roland v. Green,
675 F.3d 503 (5th Cir. 2012) .....................

14

S.E.C. v. Parish,
No. 2:07-CV-00919-DCN, 2010 WL
8347143 (D.S.C. Feb. 10, 2010) ................ 11, 21

xii
TABLE OF AUTHORITIES—Continued
Page(s)
S.E.C. v. Stanford Int’l Bank, Ltd.,
776 F.Supp.2d 323 (N.D. Tex. 2011) ........

5

S.E.C. v. Stanford Int’l Bank, Ltd.,
927 F.3d 830 (5th Cir. 2019) ....................passim
Smith v. Bayer Corp.,
564 U.S. 299, 131 S.Ct. 2368,
180 L.Ed.2d 341 (2011) ............................. 16, 17
SR Int’l Bus. Ins. Co. Ltd. v. World Trade
Ctr. Properties, LLC,
445 F.Supp.2d 356 (S.D.N.Y. 2006) ...... 8, 11, 23
United States v. Johnson,
319 U.S. 302, 63 S.Ct. 1075,
87 L.Ed. 1413 (1943) .................................

14

United States v. Schurkman,
728 F.3d 129 (2d Cir. 2013) ......................

22

Vendo Co. v. Lektro-Vend Corp.,
433 U.S. 623, 97 S.Ct. 2881,
53 L.Ed.2d 1009 (1977) ............................passim
Zacarias v. Stanford Int’l Bank, Ltd.,
931 F.3d 382 (5th Cir. 2019) .....................

10

Zacarias v. Stanford Int’l Bank, Ltd.,
945 F.3d 883 (5th Cir. 2019) ......... 10, 11, 14, 28
STATUTES
28 U.S.C. § 1254(l) ........................................

1

Anti-Injunction Act, 28 U.S.C.A §2283.......passim

xiii
TABLE OF AUTHORITIES—Continued
Page(s)
Louisiana Direct Action Statute, La. R.S.
22:1269 (formerly La. R.S. 22:655)..........passim
La. R.S. 22:1269(B)(2) ...............................

6

Louisiana Securities Act, La. R.S. 51:701,
et seq. .........................................................

5, 7

La. R.S. 51:714(B) ..................................... 3, 14

PETITION FOR WRIT OF CERTIORARI
Petitioners, Joseph Becker, et al. (“Retirees”),
respectfully submit this petition for a writ of certiorari
to the United States Court of Appeals for the Fifth
Circuit.
OPINIONS BELOW
The Fifth Circuit rendered its opinion on June 17,
2019, reported at 927 F.3d 830, and is reproduced at
Pet.App.1a-35a. The Fifth Circuit denied Petitions for
Panel Rehearing and Rehearing En Banc on October
23, 2019, and its Order is reproduced at Pet.App.
36a-39a. The Fifth Circuit’s mandate was issued on
October 31, 2019, and is reproduced at Pet.App.40a43a. The Final Bar Order granting the Receiver’s
motion to approve the settlement with Underwriters
dated May 16, 2017 is reproduced at Pet.App.44a-57a.
The district court’s order dated May 16, 2017 denying
the Retirees’ objections to the Final Bar Order is
reproduced at Pet.App.58a-73a. The district court’s
order dated May 16, 2017 approving the Receiver’s
attorney’s fee request is reproduced at Pet.App.74a81a. The district court’s order dated October 3, 2017
denying a motion for new trial on the granting of the
Final Bar Order is reproduced at Pet.App.82a-85a.
STATEMENT OF JURISDICTION
The Fifth Circuit rendered its decision on June 17,
2019, Pet.App.1a-35a, and denied rehearing en banc
on October 23, 2019, Pet.App.36a-39a. The mandate
was issued on October 31, 2019, Pet.App.40a-43a.
This Court has jurisdiction under 28 U.S.C. §1254(1).

2
STATUTORY PROVISIONS INVOLVED
28 U.S.C.A. § 2283 states:
A court of the United States may not grant an
injunction to stay proceedings in a State court
except as expressly authorized by Act of
Congress, or where necessary in aid of its
jurisdiction, or to protect or effectuate its
judgments.
La. R.S. 22:1269 states in pertinent part:
B. (1) The injured person or his survivors or
heirs mentioned in Subsection A of this
Section, at their option, shall have a right of
direct action against the insurer within the
terms and limits of the policy; and, such
action may be brought against the insurer
alone, or against both the insured and insurer
jointly and in solido, in the parish in which
the accident or injury occurred or in the
parish in which an action could be brought
against either the insured or the insurer
under the general rules of venue prescribed
by Code of Civil Procedure Art. 42 only;
however, such action may be brought against
the insurer alone only when at least one of the
following applies:
(a) The insured has been adjudged bankrupt
by a court of competent jurisdiction or when
proceedings to adjudge an insured bankrupt
have been commenced before a court of
competent jurisdiction.
(b) The insured is insolvent.
(c) Service of citation or other process cannot
be made on the insured.

3
(d) When the cause of action is for damages as
a result of an offense or quasi-offense between
children and their parents or between
married persons.
(e) When the insurer is an uninsured motorist
carrier.
(f) The insured is deceased.
(2) This right of direct action shall exist
whether or not the policy of insurance sued
upon was written or delivered in the state
of Louisiana and whether or not such policy
contains a provision forbidding such direct
action, provided the accident or injury occurred
within the state of Louisiana. Nothing contained in this Section shall be construed to
affect the provisions of the policy or contract
if such provisions are not in violation of the
laws of this state.
La. R.S. 51:714 (B) states:
B. Every person who directly or indirectly
controls a person liable under Subsection A of
this Section, every general partner, executive
officer, or director of such person liable under
Subsection A of this Section, every person
occupying a similar status or performing
similar functions, and every dealer or salesman who participates in any material way in
the sale is liable jointly and severally with
and to the same extent as the person liable
under Subsection A of this Section unless
the person whose liability arises under this
Subsection sustains the burden of proof that
he did not know and in the exercise of
reasonable care could not have known of

4
the existence of the facts by reason of which
liability is alleged to exist. There is contribution as in the case of contract among several
persons so liable.
STATEMENT OF THE CASE
The district court and Fifth Circuit permanently
stayed the Retirees’ claims against Underwriters
even though coverage under the policy was contested
based upon the “insured vs. insured” exclusion and the
amount of the settlement was substantially less
than the policy limits. The Fifth Circuit resorted to
equitable considerations to justify the grant of the
permanent stay and refused to conduct a hearing on
coverage and policy limits.
The permanent stay of the Retirees’ state court
proceedings based on equitable considerations conflicts with the existing law of this Court. Atlantic
Coast Line R. Co., 398 U.S. 281. Based upon an
unreported district court decision, the Fifth Circuit
designated the Receiver’s and Retirees’ competing
claims for coverage under the Underwriters policy as
in rem claims against assets of the receivership in
order to qualify for the “in aid of jurisdiction” exception
to the AIA, 28 U.S.C. §2283. The designation of
the competing claims of the Receiver and Retirees for
coverage under the Underwriters policy as in rem
conflicts with the existing precedents of this Court and
other circuit courts, which have held that disputed
contractual claims are in personam and not in rem
claims and, thus do not fall outside of the prohibitions
of the AIA. Kline, 260 U.S. 226.
The Securities and Exchange Commission filed a
complaint in the Northern District of Texas against
Robert Allen Stanford, the Stanford International

5
Bank, and other Stanford entities, alleging “a massive,
ongoing fraud” on February 17, 2009. “The Court
appointed Ralph S. Janvey to administer the assets of
the infamous Ponzi scheme operated by Allen Stanford
on February 17, 2009 and to serve as Receiver of
the Receivership Estate and vested him with ‘the full
power of an equity receiver under common law as well
as such powers as are enumerated’ in the Receivership
Order.” S.E.C. v. Stanford Int’l Bank, Ltd., 776
F.Supp.2d 323, 326 (N.D. Tex. 2011).
The Retirees filed suit against the Stanford Brokers
and their insurers, Certain Underwriters at Lloyd’s
of London, Arch Specialty Insurance Company, and
Lexington Insurance Company (collectively “Underwriters”), in Louisiana state court in August of 2009
under the Louisiana Securities Act, La. R.S. 51:701.1
All of the claims of the Retirees were timely noticed
under the terms of the Underwriters policy prior to
August 15, 2009 and are direct action claims against

1

See Original Petition in Joseph Becker, et al. v. Jason Green,
et al., Docket No. 579503, Nineteenth Judicial District Court,
Parish of East Baton Rouge, State of Louisiana (ROA.6853568561) with First Amendment (ROA.68563-68567) (“Becker”),
Original Petition in Rodney Starkey, et al. v. Jason Green, et al.,
Docket No. 578192, Nineteenth Judicial District Court, Parish of
East Baton Rouge, State of Louisiana (ROA.68569-68596) with
First Amendment (ROA.68598-68602) (“Starkey”), Original Petition in James Roland, et al. v. Jason Green, et al., Docket No.
581479, Nineteenth Judicial District Court, Parish of East Baton
Rouge, State of Louisiana (ROA.68604-68655) (“Roland”), and
Original Petition in Leah Farr et al. v. Jason Green, et al., Docket
No. 581480, Nineteenth Judicial District Court, Parish of East
Baton Rouge, State of Louisiana (ROA.68657-68714) (“Farr”).

6
Underwriters under the Louisiana Direct Action
Statute, La. R.S. 22:1269.2
The Receiver and Underwriters, who insured the
Brokers who defrauded the Retirees, negotiated for
complete peace and agreed to settle conditioned on bar
orders enjoining further Ponzi-scheme suits filed
against them by the Retirees. The district court
entered the bar orders, approved the settlements, and
specifically entered a permanent stay enjoining the
state court claims of the Retirees that had been previously filed against Underwriters and certain
Stanford Brokers. The Fifth Circuit granted this bar
order in favor of the Receiver even though no determination had been made of the policy limits or
that coverage may not exist under the policy for claims
of the Receiver because of the “insured vs. insured”
exclusion.
This case is the continuation of this Court’s previously decided case of Chadbourne & Parke LLP v.
Troice, 571 U.S. 377, 134 S.Ct. 1058, 188 L.Ed.2d 88
2

See La. R.S. 22:1269(B)(2) (“This right of direct action shall
exist whether or not the policy of insurance sued upon was
written or delivered in the state of Louisiana and whether or not
such policy contains a provision forbidding such direct action,
provided the accident or injury occurred within the state of
Louisiana….”). Stanford Brokers named defendants are Jason
Green, Grady Layfield, Ron Clayton, Michael Word, Jay
Comeaux, Hank Mills, Dirk Harris, Timothy Parsons, Charles
Jantzi, Tiffany Angelle, James Fontenot, Alvaro Trullenque,
John Schwab, Gary Haindel, Thomas Newland, James Comeaux,
Zack Parrish, Bernard Young, Lena Stinson, Rhonda Lear, Jack
Bruno, J.D. Perry, Joe Klingen, Russ Newton, Danny Bogar,
Jim Weller, Timothy E. Parsons, Charles Jantzi, Tiffany Angelle,
James Fontenot, Alvaro Trullenque, John Schwab, James
Keith Cox, Charles Rawl, Arlen “Tiger” Blackwell (collectively
“Brokers”).

7
(2014) (“Chadbourne”), where it was held that these
same plaintiffs’ state court securities law claims were
not precluded under the Securities Litigation Uniform
Standards Act of 1998 (“SLUSA”) and could be brought
under the Louisiana Securities Law, La. R.S. 51:701,
et seq (“LSA”). The Chadbourne decision is now a
hollow victory after being informed by the Receiver,
the district court, and the Fifth Circuit Court of
Appeals, that their securities law claim is permanently stayed. Sec. & Exch. Comm’n v. Stanford Int’l
Bank, Ltd., 927 F.3d 830, 849 (5th Cir. 2019). The
Fifth Circuit has decided an important federal
question in a way that conflicts with relevant decisions
of the United States Supreme Court, other federal
circuits, or at a minimum, decided an important
question of federal law that has not been, but should
be, settled by this Court. The decision of the Fifth
Circuit radically expands the law by allowing an
equitable receiver to permanently stay a pending state
court action of a third party against a non-debtor
broker and their insurer.
The law of this Court is clear on two important
points. First, a permanent injunction of a pending
state court securities claim in favor of an equitable
receiver based upon general equitable principles is not
allowed under the AIA. See Atlantic Coast Line R. Co.,
398 U.S. at 287. Second, the alleged legal rights of the
equitable receiver to proceeds of an insurance policy
when the policy proceeds have not been deposited with
the receiver is not “in rem” property of the estate for
purpose of creating an exception to the AIA such that
it would allow the lower courts to permanently stay
the Retirees’ state court claim to the same proceeds.
Rather, the two claims of the Receiver and the Retirees
are personal claims for the same money from the
insurer. As a result, the ruling of the Fifth Circuit

8
directly conflicts with two prior decisions of this Court.
Vendo Co., 433 U.S. at 642; Kline, 260 U.S. 226; see SR
Int’l Bus. Ins. Co. Ltd. v. World Trade Ctr. Properties,
LLC, 445 F.Supp.2d 356, 361 (S.D.N.Y. 2006). Finally,
the decision of the Fifth Circuit conflicts with the
Third Circuit decision of In re Combustion Eng’g, Inc.,
391 F.3d 190, 232 (3d Cir. 2004), which requires a
hearing on the scope of coverage and policy limits
before determining whether the federal court may
exercise exclusive jurisdiction over the policy and
policy proceeds.
The Receiver and Underwriters entered into a settlement, which was approved by the district court.
Pet.App.45a. Before Underwriters would make any
payment to the Receiver, a final order was required to
be issued that permanently enjoined and de facto
dismissed the securities law claims of the Retirees
against the Brokers and Underwriters. The question
of whether an equitable receiver can permanently stay
a pending state court securities action of a third party
against a non-debtor is an issue that has not been
considered by this Court.
At the request of the equitable receivership appointed by the SEC, the district court permanently enjoined
and de facto dismissed the Retirees’ securities law
claims against Brokers, who sold them the worthless
Stanford International Bank Certificates of Deposit
(“SIB CDs”), and claims against the Brokers’ insurer,
Underwriters. This case presents two separate issues.
First, whether the AIA precludes an equitable receiver
from permanently staying a pending state court securities claim against the Brokers and its insurer,
Underwriters, based solely upon general equity
principles. Second, whether the permanent injunction
requested by the Receiver and Underwriters falls

9
within the “in aid of jurisdiction” exception of the AIA
when the contested insurance coverage claims of both
the Receiver and Underwriters are “personal claims”
based upon Kline and not “in rem” property of the
estate, because the estate is not the holder of actual
proceeds of the policy.
The ruling staying the personal action of the
Retirees without a hearing to determine whether it
is likely the Receiver’s claim is covered or excluded
under the terms of the Underwriters’ policy based
upon the “insured vs. insured” exclusion is contrary to
the holding of the Third Circuit in In re Combustion
Eng’g, Inc., 391 F.3d at 232–33. See also In re Imerys
Talc Am., Inc., 19-MC-103 (MN), 2019 WL 3253366, at
*5 (D. Del. July 19, 2019). If the lower courts had
examined this issue, the courts would have had to
confront the likely conclusion that the “insured vs.
insured” exclusion set forth in Article IV(E) of the
Underwriters Policy unambiguously excludes coverage for the claim of the Receiver against Underwriters
because the Receiver is only filing claims on behalf of
the “Company” and the claim does not fall into the
“bankruptcy proceeding” exception to the exclusion.3

3

The Underwriters’ Directors’ and Officers’ Liability and
Company Indemnity Policy provides the following exclusion:
ARTICLE IV. EXCLUSIONS
The Underwriters shall not be liable to make any
payment for Loss resulting from any Claim
* * *
E. brought by or at the behest of the Company or by or
on behalf of any other Director or Officer except and to
the extent that
* * *

10
In addition, before the court can possibly enjoin the
state court action of the Retirees, it must first
determine whether the Receiver has any claim to the
policy proceeds. The potential abuses of the failure to
make this determination of entitlement to policy
proceeds are apparent in this situation. Here, the
Receiver seeks to settle all claims for significantly less
than policy limits in exchange for obtaining a bar order
against the Retirees, instead of based on the scope of
coverage.
Similar issues have been addressed by the Fifth
Circuit in the companion case of Zacarias v. Stanford
Int’l Bank, Ltd., 945 F.3d 883 (5th Cir. 2019)
(“Zacarias”).4 In both this case and Zacarias, the Fifth
Circuit devotes a considerable amount of time
analyzing the equitable reasons to justify its holding
based upon the fact that the Retirees should not
receive payments in excess of the claimants who did
not file an action under the securities law. However,
the law is plain that general equitable principles,
including the equity powers that can be exercised
by SEC receiverships, do not provide an additional
exception to the AIA to allow a stay of pending state
court claims such as the Retirees’ claims against the
Brokers and Underwriters. Atlantic Coast Line R. Co.,
398 U.S. at 287 (“[A]ny injunction against state court
proceedings otherwise proper under general equitable
(iii) such Claim is brought by the examiner, trustee,
receiver, liquidator, etc. in a bankruptcy proceeding
See ROA.68726.
4

The original opinion is cited as Zacarias v. Stanford Int’l
Bank, Ltd., 931 F.3d 382 (5th Cir. 2019). This opinion was
withdrawn and superseded on rehearing on December 19, 2019
in Zacarias v. Stanford Int’l Bank, Ltd., 945 F.3d 883 (5th Cir.
2019).

11
principles must be based on one of the specific
statutory exceptions to [the Anti-Injunction Act] if it is
to be upheld.”) (emphasis added).
The Fifth Circuit failed to follow this Court’s precedent in Atlantic Coast Line R. Co. by relying upon
general equitable principles as the basis for the
Court’s decision in both this case and Zacarias for the
purpose of staying state court proceedings of the
Retirees and the plaintiffs in Zacarias. Neither
opinion addresses the requirements of Atlantic Coast
Line R. Co., 398 U.S. 281.
The lower court mistakenly designates the Receiver’s and the Retirees’ claim for coverage under the
Underwriters policy as an in rem claim relying upon
the unreported South Carolina case of SEC v. Parish,
2010 WL 8347143 (D.S.C. Feb. 10, 2010). Both the
Retirees and the Receiver have unliquidated “personal” claims against the insurer for coverage under
the policy. Underwriters has made no payments to the
Receiver. As stated by this Court in Vendo Co., 433
U.S. at 642, the courts “have never viewed parallel in
personam actions as interfering with the jurisdiction
of either court.” See also SR Int’l Bus. Ins. Co. Ltd.,
445 F.Supp.2d at 361.
The ruling of the Fifth Circuit to permanently stay
a securities law claim pending in state court against
non-debtors by a third party radically expands the
powers of an equitable receiver beyond any existing
case law. If the district court’s bar order against the
Retirees is upheld, the rights of an individual investor
to pursue securities law claims against the issuer of
the securities and its board of directors and executive
officers of insolvent companies are severely restricted
and limited, and represent a major change in policy.
Further, it encourages the Receiver to enter into

12
discount settlements with insurers in return for global
releases, when in fact, no coverage exists under the
terms of the insurance policy.
This writ should be granted because the court
ignored the Supreme Court’s decision of Atlantic Coast
Line R. Co., 398 U.S. 281, by primarily basing its
decision on general equitable principles to permanently stay the pending state court claims of the
Retirees. Equitable considerations are not one of the
exceptions to the AIA. Further, the holding in this
case by the Fifth Circuit conflicts with this Court’s
precedent and the law in other circuits which has held
that a receiver’s claim for insurance coverage and
other non-debtor claims for insurance coverage are
personal actions and not in rem actions and may not
be enjoined as an exception to the AIA until the
proceeds are actually paid to the Receiver. Vendo Co.,
433 U.S. at 642; Kline, 260 U.S. 226.
Substantially all of the existing case law decided by
the federal courts allowing for bar orders fall into
three categories that have no relevance to this case.
First, numerous decisions have been rendered where
settlement bar orders have been allowed by the courts
to bar claims between co-defendants—i.e., to prevent
one non-settling co-defendant from seeking contribution against a settling co-defendant. Secondly, numerous decisions have been rendered where settlement
bar orders have been allowed by courts to enjoin the
filing of future state court claims against settling
parties after the date of the bar order. The third
category is direct claims by a third party against the
Receiver.
No reported case addresses an equitable receivership’s right to permanently stay a third party claim
that is pending in state court against an insurer for

13
coverage under an insurance policy where both the
Receiver and third party are seeking coverage under
the policy. The decision of the Fifth Circuit forges
new ground and radically expands the powers of an
equitable receiver and bankruptcy receiver beyond
the settlement powers conferred under any existing
case law. The holding of the Fifth Circuit in this
case eviscerates the rights of shareholders to bring
securities law claims against fraudulent individual
promoters, brokers and their insurers when the
original issuer has filed for bankruptcy or where the
courts have appointed an equitable receivership for
the original issuer by essentially giving the trustee or
receiver the right to de facto dismiss any existing
securities law claim against the individual brokers
and promoters that committed the fraud.
In the case at hand, the Receiver and Underwriters
have entered into a settlement agreement notwithstanding the fact that no coverage exists under the
policy for less than policy limits in return for the court
agreeing that Underwriters will have no further
liability. The abuse of this settlement is apparent—
the insurer is receiving a release of liability for less
than policy limits even though it has no coverage for
the Receiver, in return for a complete release of
liability from all parties. The insurance coverage in
this case turns upon the status of the claimant and not
the type of transaction that has resulted in the claim.
The coverage of the policy is based upon the status of
the plaintiff and not the type of transaction based on
a provision in the policy that precludes one insured
from suing another insured. This affords the Court
the opportunity to fully confront the legal issues
relating to the validity of the Retirees’ and the
Receiver’s claim for coverage under the Underwriters
policy that provides insurance for the non-debtor

14
officers and directors. Further, the abuse of not
addressing these substantive issues is the type of
situation addressed in the Zacarias dissent where
Judge Willet states, “Federal courts cannot decide a
claim’s fate outside the ‘honest and actual antagonistic
assertion of rights.’” Zacarias, 945 F.3d at 883, citing
United States v. Johnson, 319 U.S. 302, 305, 63 S.Ct.
1075, 87 L.Ed. 1413 (1943) (quoting Chi. & G.T. Ry.
Co. v. Wellman, 143 U.S. 339, 345, 12 S.Ct. 400, 36
L.Ed. 176 (1892)). No “honest and actual antagonistic
assertion of rights” have occurred between the
Receiver and Retirees as to the ownership of the policy
proceeds.
Prior to August 15, 2009, the Retirees filed four suits
against Underwriters and the officers, directors, and
employees of the Stanford Entities, who were insureds
under Underwriters’ Policies, in connection with the
purchases of the SIB CDs.5 The lawsuits were also
filed directly against Underwriters as allowed under
the Louisiana Direct Action Statute, La. R.S. 22:1269
(formerly La. R.S. 22:655). The claims against the
Brokers were based upon the Louisiana Securities
Law, La. R.S. 51:714(B), which allows for liability if
the defendants were negligent in omitting certain
information in connection with the offering. Under the
terms of Underwriters’ claims-made policy, any claim
had to be noticed prior to August 15, 2009, which was
complied with by the Retirees.
On May 16, 2017, the Honorable David Godbey
issued a Final Bar Order granting the Receiver’s
motion to approve the settlement with Underwriters
(Pet.App.44a-57a), and issued an Order denying the
5

See FN 1; The procedural background of case is set forth in
detail in Roland v. Green, 675 F.3d 503 (5th Cir. 2012).

15
Retirees’ objections to the motion to approve the
settlement (Pet.App.58a-73a). The Settlement Agreement and proposed Bar Order attempt to permanently
enjoin the Retirees’ claims that were filed in Louisiana
state court prior to August 15, 2009 against Underwriters and each of its insureds, who are brokers
and investment advisors. As a condition to the
payment of the settlement amount, the district court
signed the Bar Order (Pet.App.44a-57a) and issued a
written opinion setting forth its basis for the ruling.
Pet.App.58a-73a.
Paragraphs 11 and 14 of the
Judgment and Bar Order permanently enjoin the
Stanford Investors from pursuing the Stanford Claims.
Pet.App.52a; Pet.App.54a-55a. Paragraph 21 of the
Settlement Agreement defines the Stanford Investor
Claim to mean “any action, lawsuit or claims brought
by any Stanford Investor against Underwriters [or]…
Underwriter’s Insureds.” (ROA.65369-65370). Underwriters’ Insureds are defined in Paragraph 25 as “any
person that shall be an officer and director of any
Stanford Entities… [or] any employee of any Stanford
Entities.” (ROA.65371).
Based upon this language, the Retirees, including
the Chadbourne Plaintiffs, all meet the definition of
being a Stanford Investor and their timely noticed and
filed state court claims are Stanford Investor Claims.
Since the Stanford Investor Claims include claims
against Underwriters and Underwriters’ Insureds
(officers, directors, and employees of any Stanford
Entities), the permanent injunction would result in a
de facto final dismissal of all of the Retirees’ claims
pending in Louisiana state court against the Underwriters and all of its Insureds (brokers, investment
advisors, officer, directors, and employees of Stanford
Entities) who were named as defendants in the
Louisiana state court litigation.

16
REASONS FOR GRANTING THE PETITION
This holding of the Fifth Circuit in granting a
permanent stay against existing state court claims
against Underwriters conflicts with this Court’s
holdings not to interfere in state court proceedings.
“The Act broadly commands that those tribunals
‘shall remain free from interference by federal courts.’”
Smith v. Bayer Corp., 564 U.S. 299, 306-307, 131 S.Ct.
2368, 180 L.Ed.2d 341 (2011), citing Atlantic Coast
Line R. Co., 398 U.S. at 282. Granting this permanent
stay based upon general equitable principles impinges
on the well-defined boundaries of states’ rights that
allow personal claims to go forward in separate state
court proceedings unless an exception to the AIA
exists. It is a novel concept at best that an equitable
receiver and third parties cannot pursue the same
source of recovery for non-debtors in personal
actions—in this case, coverage under the Underwriters policy. It is at this point of the analysis that the
powers of the equity receiver clash with the rights of
state courts and the historical desires of this Court
to prevent federal courts from intervening in the
operation of state courts. The writ should be granted
to establish the parameters of this relationship.
I. An Order Issued By The Fifth Circuit
Allowing An Equitable Receiver To
Permanently Stay A Pending State Court
Securities Claim Based Upon General
Equitable Principles Is Not An Exception
To The Anti-Injunction Act.
“[A]ny injunction against state court proceedings
otherwise proper under general equitable principles
must be based on one of the specific statutory
exceptions to [the Anti-Injunction Act] if it is to be

17
upheld.” Atlantic Coast Line R. Co., 398 U.S. at 287.6
Based upon the express holding of Atlantic Coast Line
R. Co., general equitable principles cannot be used to
create exceptions to the AIA.
The AIA provides that “[a] court of the United States
may not grant an injunction to stay proceedings in a
State court except as expressly authorized by Act of
Congress, or where necessary in aid of its jurisdiction,
or to protect or effectuate its judgments.” 28 U.S.C.
§2283. This Court, in Smith, 564 U.S. 299, 306-307,
stated the following:
…[T]he Act’s core message is one of respect
for state courts. The Act broadly commands
that those tribunals “shall remain free from
interference by federal courts.” Atlantic Coast
Line R. Co. v. Locomotive Engineers, 398
U.S. 281, 282, 90 S.Ct. 1739, 26 L.Ed.2d 234
(1970). That edict is subject to only “three
specifically defined exceptions.” Id., at 286,
90 S.Ct. 1739. And those exceptions, though
designed for important purposes, “are narrow
and are ‘not [to] be enlarged by loose statutory construction.’” Chick Kam Choo, 486
U.S., at 146, 108 S.Ct. 1684 (quoting Atlantic
Coast Line, 398 U.S., at 287, 90 S.Ct. 1739;
alteration in original). Indeed, “[a]ny doubts
as to the propriety of a federal injunction
against state court proceedings should be
resolved in favor of permitting the state
courts to proceed.” Id., at 297, 90 S.Ct. 1739.
6

See 202 N. Monroe, LLC v. Sower, 850 F.3d 265, 271 (6th Cir.
2017); Negrete v. Allianz Life Ins. Co. of N. Am., 523 F.3d 1091,
1100–01 (9th Cir. 2008); In re Prudential Ins. Co. of Am. Sales
Practice Litig., 261 F.3d 355, 364 (3d Cir. 2001).

18
* * *
…[E]very benefit of the doubt goes toward the
state court; …an injunction can issue only if
preclusion is clear beyond peradventure.”
In reviewing the Fifth Circuit opinion, it is apparent
that the Fifth Circuit justified its actions in staying
the claims of the Retirees against Underwriters based
upon equitable standards specifically not allowed by
Atlantic Coast Line R. Co. The court explicitly relied
upon equitable standards in allowing the bar order, as
shown by the following statement:
...(E)quity favored avoiding costly litigation
and dissipation of receivership assets by
allowing the Receiver, a coinsured with equal
claim to the policy proceeds, to settle with
the Underwriters. Avoiding protracted legal
examination of the policy exclusions, which
could just as easily bar Retirees and others
from the policy proceeds, was precisely the
point of the settlement.
Sec. & Exch. Comm’n v. Stanford Int’l Bank, Ltd., 927
F.3d at 850; Pet.App.34a. Further, the court stated
that it reasoned that “on balance the unfairness
alleged by the Objectors is either mitigated by other
circumstances or simply outweighed by the benefit of
the settlement in terms of fairness, equity, reasonableness, and the best interests of the receivership.” Sec.
& Exch. Comm’n v. Stanford Int’l Bank, Ltd., 927 F.3d
at 838-39; Pet.App.67a.
No exception is provided for receiverships which
would allow the lower court to permanently enjoin
and de facto dismiss claims that were filed in state
court seven years prior to the proposed settlement
based upon general equitable principles. The grant of

19
the permanent stay, based upon general equitable
principles, of a claim by a third party against a nondebtor (the Brokers and their insurer, Underwriters)
has no foundation in the law and is contrary to the
existing law established by this Court to protect
actions in state court.
“Any doubts as to the propriety of a federal injunction against state court proceedings should be resolved
in favor of permitting the state courts to proceed in an
orderly fashion to finally determine the controversy.”
Atlantic Coast Line R. Co., 398 U.S. at 297. These
exceptions are each construed narrowly and should
not be broadened by “loose statutory construction.”
Bayer, 564 U.S. at 306; Chick Kam Choo v. Exxon
Corp., 486 U.S. 140, 146, 108 S.Ct. 1684, 100 L.Ed.2d
127 (1988). Thus, the lower court erred by disregarding the precedent of this Court is granting the bar
order based on general equitable principles.
II. The Competing Claims Of The Receiver
And The Retirees To The Proceeds Of The
Underwriters Policies Are Not In Rem
Claims For The Purpose Of Determining
Whether The “In Aid Of Jurisdiction”
Exception Existed To The AIA When
Coverage Of The Receiver Is Contested
And No Cash Proceeds Of The Policy Have
Been Actually Paid To The Receiver.
The Anti-Injunction Act, 28 U.S.C. §2283, provides
that:
A court of the United States may not grant an
injunction to stay proceedings in a State court
except as expressly authorized by Act of
Congress, or where necessary in aid of its

20
jurisdiction, or to protect or effectuate its
judgments. (Emphasis added.)
The Act is “an absolute prohibition against enjoining
state court proceedings, unless the injunction falls
within one of three specifically defined exceptions.”
MLE Realty Assocs. v. Handler, 192 F.3d 259, 261 (2d
Cir. 1999) (citation omitted). The primary focus of this
case is whether the competing claims for the policy
proceeds by the Receiver and Retirees are a personal
claim or an “in rem” claim against the assets of the
estate. The Kline case establishes two important legal
propositions. First, an in rem claim against the assets
of the estate has been interpreted to allow a court to
enjoin a state court lawsuit based upon the in aid
of jurisdiction exception. Secondly, “[A] controversy is
not a thing, and a controversy over a mere question of
personal liability does not involve the possession or
control of a thing, and an action brought to enforce
such a liability does not tend to impair or defeat the
jurisdiction of the court in which a prior action for the
same cause is pending.” Kline, 260 U.S. at 230.
The legal rights of the equitable receiver under an
insurance policy when coverage is contested and the
money has not been deposited with the receiver is not
in rem property of the estate for purposes of creating
an exception to the AIA and justification for staying
the Retirees’ state court claim. Instead, each of the
claims by the Receiver and the Retirees are personal
claims for the same money from the insurer. The
permanent injunction granted the Receiver and
Underwriters does not fall within the “in aid of jurisdiction” exception of the AIA because the contested
insurance coverage claims of both the Receiver and
Underwriters are “personal claims” based upon Kline

21
and not in rem property of the estate because the
estate is not the holder of actual proceeds.
The Fifth Circuit relied on one unreported case from
South Carolina as legal authority for the proposition
that the Receiver’s claim to the policy proceeds makes
it in rem property of the estate even though no money
has actually been paid. SEC v. Parish, 2010 WL
8347143.7 Sec. & Exch. Comm’n v. Stanford Int’l
Bank, Ltd., 927 F.3d at 851; Pet.App.35a. Rather than
identifying the Receiver’s claim as one for coverage
under the policy, the lower court erroneously characterized the insurer/Receiver relationship as one in
which the Receiver is physically holding the proceeds
of the policy as cash in hand. This characterization is
not accurate. The only asset held by the Receiver is
the claim that it has for coverage under the policy for
the negligent conduct of the officers and directors as
insureds under the terms of the policy, similar to the
7

The unreported case of SEC v. Parish, 2010 WL 8347143, is
the sole case that the Receiver has provided as authority to
support its argument that a claim for coverage under the Underwriters policy is an in rem claim and is an exception to the AIA.
The Fifth Circuit, with little analysis of who owned the policy
proceeds, determined in one paragraph the following:
“The district court has exclusive in rem jurisdiction
over the policy proceeds and permanent bar orders
have been approved as parts of settlements to secure
receivership assets. See, e.g., SEC v. Parish, No. 2:07CV-00919-DCN, 2010 WL 8347143 (D.S.C. Feb. 10,
2010) (“[T]he bar order is necessary to preserve and aid
this court’s jurisdiction over the receivership estate,
such that the Anti-Injunction Act would not prohibit
the bar order even if there were pending state court
actions, which there are not.”).
Sec. & Exch. Comm’n v. Stanford Int’l Bank, Ltd., 927 F.3d at
851; Pet.App.34a-35a.

22
claim held by the Retirees as a third party beneficiary
to the insurance contract. It can convert that “claim”
to “cash proceeds” only if it obtains a complete release
of rights owned by the Retirees. “We have never
viewed parallel in personam actions as interfering
with the jurisdiction of either court.” Vendo Co., 433
U.S. at 642; Retirement Systems of Ala. v. J.P. Morgan
Chase & Co., 386 F.3d 419, 426 (2d Cir. 2004).
The court in Kline held that this exception to the
AIA applies only where federal and state courts are
simultaneously attempting to exercise jurisdiction
over in rem property of the estate. “(A)n action
brought to enforce (a personal liability) does not tend
to impair or defeat the jurisdiction of the court in
which a prior action for the same cause is pending.
Each court is free to proceed in its own way and in its
own time, without reference to the proceedings in the
other court.” Id. at 230; United States v. Schurkman,
728 F.3d 129, 136–37 (2d Cir. 2013).
As the Kline court explained, the considerations that
apply in the context of an in rem action do not apply to
in personam actions such as the breach of contract suit
that was before it:
But a controversy is not a thing, and a controversy over a mere question of personal
liability does not involve the possession or
control of a thing, and an action brought to
enforce such a liability does not tend to impair
or defeat the jurisdiction of the court in which
a prior action for the same cause is pending.
Each court is free to proceed in its own way
and in its own time, without reference to the
proceedings in the other court. Whenever a
judgment is rendered in one of the courts and
pleaded in the other, the effect of that judg-

23
ment is to be determined by the application of
the principles of res adjudicata by the court in
which the action is still pending in the orderly
exercise of its jurisdiction, as it would determine any other question of fact or law arising
in the progress of the case. The rule, therefore,
has become generally established that where
the action first brought is in personam and
seeks only a personal judgment, another action
for the same cause in another jurisdiction is
not precluded.
Id. at 230 (emphasis added). Since Kline decided the
issue in 1922, “the Supreme Court has never held that
a district court may enjoin, as necessary in aid of the
district court’s jurisdiction, a parallel in personam
state action.” Retirement Systems of Ala., 386 F.3d
at 426.
A case very analogous to the facts in this case
involving multiple claims in various courts is the case
of SR Int’l Bus. Ins. Co. Ltd., 445 F. Supp. 2d 356. This
case considers the scope of Kline and Retirement
Systems of Ala. The issue presented in SR Int’l Bus.
Ins. Co. Ltd. is the same one that is presented in this
case—whether claimants for policy proceeds based
upon the collapse of the World Trade Center Properties could be litigated in both federal and state court
as long as the actual policy proceeds were not paid.
The court rejected the arguments of the insurer that
insurance proceeds available to the insureds in
coverage litigation constituted in rem property of the
estate over which the federal court had jurisdiction
and noted that it only considered insurance proceeds
to be “in rem” property of the estate when they were
deposited with the court; otherwise, suits involving

24
insurance coverage and insurance proceeds are simply
in personam actions.8
Further, when a payment by the insurer cannot
inure to the debtor’s pecuniary benefit because of coverage limitations, then that payment should neither
enhance nor decrease the bankruptcy estate. In re
15375 Mem’l Corp., 382 B.R. 652, 689 (Bankr. D. Del.
2008) (“Likewise, this Court has repeatedly held that
the bankruptcy estate has no protectable property
interest in the proceeds of D & O liability insurance
when it appeared unlikely that the proceeds of the
D & O insurance would be totally exhausted by the
non-debtor claims being presented under it or the
debtor was not itself subject to claims that were at risk
of being left uninsured.”). In the case of In re Cont’l
Airlines, 203 F.3d 203, 217 (3d Cir. 2000), the court
goes further holding that “[e]ven assuming that the
proceeds are property of the estate, this by itself does
not justify a permanent injunction of Plaintiffs’ actions
against the insured non-debtor D&O defendants as
necessary for the reorganization of the Continental
Debtors.” “There is no dispute that the Securities Litigation, although a complex, multidistrict litigation, is
an in personam action against defendants.” Retirement Systems of Ala., 386 F.3d at 426.
In relying on an unreported district court case from
South Carolina, the Fifth Circuit essentially expanded
the scope of Kline to include personal claims where
both sides are contesting insurance coverage. The
Fifth Circuit held that both the Receiver’s claims and
the Retirees’ claims for coverage were in rem property
8

See also Nevada Gen. Ins. Co. v. Provencio, CIV 15-0165
MCA/KBM, 2016 WL 9488767, at *2 (D.N.M. Dec. 19, 2016); In
re Enivid, Inc., 364 B.R. 139 (Bankr. D. Mass. 2007).

25
claims. It is this issue that is the subject of the writ
application to this Court. When the claim of the
Receiver is contested because of coverage issues, and
no insurance proceeds have been paid to either party,
it is a personal claim based upon Kline because “the
controversy is not a thing”. Kline, 260 U.S. at 230.
Both the state court action and the federal action for
insurance coverage involve “a controversy over a mere
question of personal liability” and “does not involve the
possession or control of a thing” and, as such, are
personal actions. Id. (emphasis added); Retirement
Systems of Ala., 386 F.3d at 426. The federal court
litigation seeks to compel the insurers to pay monies
properly due under the insurance coverage they
provided. The current actions filed in state court by
the Retirees against the insured Brokers and Underwriters seek a determination that no coverage exists
for the Receiver based upon the terms of the policy and
a portion of the policy proceeds should be paid to the
Retirees. The competing claims for coverage under the
policy are personal actions.
The case of Maryland Casualty Co. v. W.R. Grace &
Co., 726 F. Supp. 62 (S.D.N.Y. 1989), aff’d, 889 F.2d
1231 (1989) (per curiam), is another Second Circuit
case that is in conflict with the holding of the Fifth
Circuit. In Maryland Casualty, the district court
refused to issue an injunction against parallel state
court proceedings and was affirmed by the Second
Circuit. At the district court level in Maryland
Casualty, the court ruled that a federal court
overseeing a complex insurance coverage action could
not issue an injunction preventing the insureds from
“litigating against [the insurer] in other [state] forums
over... insurance coverage claims placed at issue by the
amended complaint and counterclaim in th[e] [federal]
lawsuit.” 726 F. Supp. at 63.

26
In F.D.I.C. v. Geldermann, Inc., 975 F.2d 695, 698
(10th Cir. 1992), the court was confronted with this
exact same issue and determined that the universal
body of law holds that fundamental due process
principles prohibit claim extinguishment against anyone not a party to the action. See also In re GunnAllen
Fin., Inc., 443 B.R. 908, 916 (Bankr. M.D. Fla. 2011).
The case of Cobalt Multifamily Inv’rs I, LLC v.
Shapiro, 2013 WL 5418588 (S.D.N.Y. Sept. 27, 2013),
is also particularly relevant to the issue at hand.
There, the court rejected a proposed bar order that
would have “extinguish[ed] potential nonparty
claims.” In so doing, the Cobalt court conducted an
extensive analysis, that “principles of due process and
fundamental fairness preclude a court from barring
claims of nonparties.” 2013 WL 5418588 at *1-*2
(emphasis added). The same result should be found
here. The Bar Order is overbroad to the extent it
dismisses the Retirees’ claims.
III. The Retirees’ Claims Against Underwriters May Not Be Permanently Stayed
Without First Conducting A Hearing To
Determine Who Has A Legal Right To The
Policy Proceeds Under The Terms Of The
Policy.
The Fifth Circuit permanently stayed the Retirees’
claims against Underwriters without first determining who has a legal right to the policy proceeds based
the “insured vs. insured” exclusion in the Underwriters policy or the amount of the policy limits. The law
is well established that the court cannot exercise
jurisdiction over the policy proceeds without first
having a hearing to determine who is entitled to the
proceeds of the insurance policy based upon competing
personal action claims. “Neither the Bankruptcy

27
Court nor the District Court made factual findings
regarding the terms, scope or coverage of the allegedly
shared insurance policies.” In re Combustion Eng’g,
Inc., 391 F.3d at 232. “It is doubtful whether shared
insurance would be sufficient grounds upon which to
find related-to jurisdiction.” Id. The result is the same
in a case recently decided by the Delaware district
court where it was determined that the person seeking
the stay “fails to offer a sufficient record that the terms
and operation of the policies establish subject matter
jurisdiction.” In re Imerys Talc Am., Inc., 2019 WL
3253366 at *5.
The question presented is whether the claim of the
Retirees can be permanently enjoined from pursuing a
claim for the policy proceeds when no hearing has been
had to determine the policy limits or whether the
Receiver had coverage under the Underwriters policy.
The Fifth Circuit refused to require a hearing on these
issues because of the cost of making these determinations would deplete the resources of the receivership.
Sec. & Exch. Comm’n v. Stanford Int’l Bank, Ltd., 927
F.3d at 850; Pet.App.34a.9 In other words, the Fifth
Circuit skipped a step and determined the proceeds of
the policy were owned by the Receiver without this
issue ever being briefed or decided based upon general
equitable principles not allowed by this Court.

9

Sec. & Exch. Comm’n v. Stanford Int’l Bank, Ltd., 927 F.3d
at 850; Pet.App.34a (“...(E)quity favored avoiding costly litigation
and dissipation of receivership assets by allowing the Receiver, a
coinsured with equal claim to the policy proceeds, to settle with
the Underwriters. Avoiding protracted legal examination of the
policy exclusions, which could just as easily bar Retirees and
others from the policy proceeds, was precisely the point of the
settlement.”).

28
Atlantic Coast Line R. Co., 398 U.S. at 287. Further,
the abuse of not addressing these substantive issues is
the type of situation addressed in the Zacarias dissent
where Judge Willet states, “Federal courts cannot
decide a claim’s fate outside the ‘honest and actual
antagonistic assertion of rights.’” Zacarias, 945 F.3d
at 883, citing Chi. & G.T. Ry. Co., 143 U.S. at 345. No
“honest and actual antagonistic assertion of rights”
have occurred between the Receiver and Retirees as to
the ownership of the policy proceeds.
Notwithstanding this ruling of the Fifth Circuit
granting a permanent stay of the Retirees’ claim, there
has never been any hearing to determine the policy
limits or whether the Receiver was entitled to the
proceeds based upon the “insured vs. insured” exclusion. Based upon the previously cited law as to what
constitutes a personal action, it is very difficult, if not
impossible, for the court to reach the conclusion that
in rem jurisdiction exists when two personal claims for
the policy proceeds exist.
As succintly stated by the Fifth Circuit, Underwriters agreed to pay $65 million into the receivership
estate, but the settlement required orders barring all
actions against Underwriters relating to the policies.
The Fifth Circuit acknowledged the fact that the
coverage limits may be as high as $101 million.10 No
10

Sec. & Exch. Comm’n v. Stanford Int’l Bank, Ltd., 927 F.3d
at 837; Pet.App.6a.
The maximum amount of remaining coverage is disputed. According to the district court, the Underwriters have paid some $30 million in claims under the
policies for insureds’ defense costs. Underwriters
contend that only $46 million remains available
because the losses resulted from a single event—the
Ponzi scheme. The Receiver argues that the conduct

29
authority provided by the Receiver or Underwriters
allows the insurer to unilaterally decrease the limits
of its policies by the use of a bar order when other
parties have an interest in the policy proceeds as a
matter of law—in this case direct claims under the
Louisiana Direct Action Statute.
Two important issues are involved in the question of
the payment of the insurance proceeds by Underwriters. First, what are the maximum policy limits that
should be paid by Underwriters under the terms of the
policy. Second, and most importantly, who is entitled
to the proceeds based upon the terms and exclusions
under the policy—the Retirees or the Receiver. To
state it bluntly, the Receiver is receiving the cash
payment in consideration for implementing the global
settlement bar and not as compensation for the
coverage that exists under the Underwriters policy.
Given the coverage issues that exist on the “insured
vs. insured” exclusion, it is apparent Underwriters is
using the equitable receivership as a vehicle to reduce
its policy limits, and attempting to eliminate other
meritorious claims through the Bar Order and
equitable powers of the receivership.
The abuse of approving this type of procedure
without a hearing to really determine who owns the
policy proceeds is unprecedented. The question that
should be focused on is what protection exists to
prevent the Receiver from receiving the cash payment
in consideration for implementing the global
settlement bar and not as compensation for the
coverage that exists under the Underwriters policy.

implicates the aggregate loss limits up to $101 million
of remaining coverage.

30
Because of the legal standing afforded the Retirees
based upon the third party beneficiary status under
the Louisiana Direct Action Statute, the Retirees and
the Receiver all have similar types of claims and
standing for coverage under the policy. The district
court erred by permanently staying the claim of the
Retirees without making a determination of whether
the Retirees or the Receiver has a legal right to the
policy proceeds under the terms of the Underwriters
policy based upon the “insured vs. insured” exclusion
or the amount of the policy limits. Underwriters is
attempting to use the receivership law to achieve a full
and complete release of liability for less than policy
limits by paying the settlement to the Receiver with
no regard as to the literal language of the policy and
its exclusions.
As stated by the Fifth Circuit in In re Equinox
Oil Co., Inc., 300 F.3d 614, 618–19 (5th Cir. 2002),
interpreting the earlier decision of In re Edgeworth,
993 F.2d 51 (5th Cir. 1993), “[t]he overriding question
when determining whether proceeds are property of
the estate is whether the debtor would have a right to
receive and keep those proceeds when the insurer paid
on a claim. When a payment by the insurer cannot
inure to the debtor’s pecuniary benefit, then that
payment should neither enhance nor decrease the
bankruptcy estate.” (Emphasis added). In the case of
In re Cont’l Airlines, 203 F.3d 203, 217 (3d Cir. 2000),
the court goes further holding that “[e]ven assuming
that the proceeds are property of the estate, this
by itself does not justify a permanent injunction of
Plaintiffs’ actions against the insured non-debtor D&O
defendants as necessary for the reorganization of the
Continental Debtors.” In re 15375 Mem’l Corp., 382
B.R. at 689 (“Likewise, this Court has repeatedly held
that the bankruptcy estate has no protectable property

31
interest in the proceeds of D & O liability insurance
when it appeared unlikely that the proceeds of the
D & O insurance would be totally exhausted by the
non-debtor claims being presented under it or the
debtor was not itself subject to claims that were at risk
of being left uninsured.”).11
The law conclusively provides that the “insured vs.
insured” exclusion set forth in Article IV(E) of the
Underwriters Policy unambiguously excludes coverage for the claim of the Receiver against Underwriters
because the Receiver is only filing claims on behalf of
the “Company” and the claim does not fall into the
“bankruptcy proceeding” exception to the exclusion.12
See Nat’l Union Fire Ins. Co. of Pittsburgh, Pa. v.
Resolution Trust Corp., 1992 WL 611463, at *3 (S.D.
Tex. Aug. 12, 1992). Thus, the terms of the Policy
unambiguously exclude any claim brought by the
“Company” from coverage unless “such claim is
brought by the examiner, trustee, receiver, liquidator,
etc. in a bankruptcy proceeding.” Therefore, the first
question is whether the receiver is bringing the claim
“at the behest of the Company.” The second question
is whether the claim is being brought in a “bankruptcy
proceeding,” which is the exception to the exclusion.
The exception to the exclusion allows a claim that
“is brought by the examiner, trustee, receiver, liquidator, etc. in a bankruptcy proceeding.” The exception
for receivers in a bankruptcy proceeding does not
11

In re 15375 Mem’l Corp., 382 B.R. at 689 (“In such situations,
this Court has recognized that “the proceeds of the Debtor’s
insurance policy are not property of the estate” because the
estate’s interest in the proceeds is defined by the terms of the
policies and in no way superior to the interest of other, non-debtor
parties intended to be benefited by the policies.”).
12

See FN 3 for full text of the exclusion.

32
apply here because the Stanford Receivership is not a
“bankruptcy proceeding.” The pleadings of the SEC,
the Receiver’s facts and prior Orders of the Fifth
Circuit are very specific that this is not a “bankruptcy
proceeding.”
The “insured vs. insured” exclusion similar to the
exclusion in the Underwriters Policy has been the
subject of multiple lawsuits arising initially from the
S&L crisis of the 1980s and 90s wherein the FDIC as
receiver attempted to strike down this straightforward
exclusion based upon the argument that the Receiver
does not represent the company in pursuing the claims
against the insurer. With few exceptions, the courts
have rejected this argument and ruled that a receiver
does not have coverage under the terms of the policy
for claims by a company against its employees, officers
or directors. In Nat’l Union, the court stated:
In Gary v. American Casualty Company of
Reading, PA., 753 F.Supp. 1547 (W.D. Okla.
1990) the Court found the Insured v. Insured
Exclusion barred coverage because the FDIC
was standing in the shoes of the bank who
was prosecuting the claims. Id. at 1554…
Based upon the reasoning of Gary, this Court
finds that the claims asserted by the RTC
in this action are barred by the Insured v.
Insured Exclusion in addition to the Regulatory Exclusion.
Nat’l Union, 1992 WL 611463 at *3. The “insured vs.
insured” exclusion bars any claims brought by any
receiver”. Hawker v. Doak, 685 Fed.App’x. 565, 567
(9th Cir. 2017); BancInsure, Inc. v. FDIC, 796 F.3d

33
1226, 1234–39 (10th Cir. 2015).13 This position has
been adopted by the Underwriters in multiple briefs
filed in this proceeding.
CONCLUSION
The Court should grant the Petition.
Respectfully submitted,
PHILLIP W. PREIS
Counsel of Record
CHARLES M. GORDON, JR.
CRYSTAL D. BURKHALTER
CAROLINE P. GRAHAM
PREIS GORDON, APLC
450 Laurel Street, Suite 2050
Baton Rouge, Louisiana 70801
(225) 387-0707
phil@preislaw.com
chuck@preislaw.com
crystal@preislaw.com
caroline@preislaw.com
Counsel for Petitioners,
Joseph Becker, et al.
January 21, 2020

13

Redmond v. ACE Am. Ins. Co., 614 Fed. App’x 77, 80 (3d Cir.
2015); Indian Harbor Ins. v. Zucker, 2016 WL 1253040 (W.D.
Mich. Mar. 31, 2016); BancInsure, Inc. v. F.D.I.C., 796 F.3d 1226,
1234 (10th Cir. 2015); Oliver v. Indian Harbor Ins. Co., 2008 WL
565514, at *3 (N.D. Ill. Feb. 27, 2008).

